Department of Homeland Security
   Ofﬁce of Inspector General

             DHS Risk Assessment Efforts in the 

                       Dams Sector 





OIG-11-110                                    September 2011
                                                              Office (if Inspector General

                                                              u.s. Department of Homeland Security
                                                              Washington, DC 20528




                                                               Homeland
                                                               Securi ty

                   SEP 1 5 2011




                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the Office of Infrastructure
Protection's efforts to assess risk to critical infrastructure under a voluntary framework.
It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents,

The recommendation herein has been developed to the best knowledge available to our
office, and has been discussed in draft with those responsible for implementation. We
trust this report wil result in more effective, efficient, and economical operations. We


                                       ~:;~
express our appreciation to all of those who contributed to the preparation of this report.


                                       Anne L. Richards
                                       Assistant Inspector General for Audits
Table of Contents/Abbreviations 

Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 3 


           Review of Risk Assessments ................................................................................. 4 


           Security Reviews for Critical Dam Assets ............................................................. 4 


           Mitigation of Identified Security Risks .................................................................. 5 


           Conclusion ............................................................................................................. 6 


           Recommendation ................................................................................................... 6 


           Management Comments and OIG Analysis .......................................................... 6 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ....................................................... 8 

     Appendix B:           Management Comments to the Draft Report ..................................... 10 

     Appendix C:           Major Contributors to this Report ...................................................... 13 

     Appendix D:           Report Distribution ............................................................................ 14 


Abbreviations
     DHS                   Department of Homeland Security 

     FY                    fiscal year            

     IP                    Office of Infrastructure Protection 

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The protection of the Nation’s critical infrastructure is one of the
                primary missions of the Department of Homeland Security. The
                National Infrastructure Protection Plan provides the strategy to
                organize and carry out the national effort to protect 18 sectors of
                critical infrastructure, one of which is the Dams Sector. Dams and
                related structures are especially important because one catastrophic
                failure at some locations could affect populations exceeding
                100,000 and have economic consequences surpassing $10 billion.

                The purpose of our review was to determine whether the Office of
                Infrastructure Protection and other components of the Department
                have taken steps to assess risk at the most critical dam assets, and
                followed up to ensure that recommendations were implemented.

                The Department lacks assurance that risk assessments were
                conducted and that security risks associated with critical dam
                assets were identified and mitigated. The Department did not:

                       Review all critical dam asset risk assessments conducted by
                       other agencies,
                       Conduct security reviews for 55% of the critical dam
                       assets, or
                       Ensure that corrective actions were completed to mitigate
                       risk when security gaps were identified.

                The Department was unable to complete these tasks because it
                does not have the necessary authority to ensure that security
                partners participate in risk management activities, or that dam
                owners/operators undergo departmental assessments and
                implement corrective action.

                We are making one recommendation to the Office of Infrastructure
                Protection that, when implemented, will improve the Department’s
                efforts to secure the Dams Sector.




                  DHS Risk Assessment Efforts in the Dams Sector
 


                                      Page 1
 

Background
             Protecting the Nation’s critical infrastructure is one of the primary
             missions of the Department of Homeland Security (DHS). In
             December 2003, Homeland Security Presidential Directive 7,
             Critical Infrastructure Identification, Prioritization, and Protection,
             established U.S. policy to enhance the protection of the critical
             infrastructure and key resources of the United States. It tasked the
             Secretary of DHS with coordinating the overall national effort and
             serving as the principal federal official to lead, integrate, and
             coordinate federal departments and agencies implementing the
             policy.

             The directive identified critical infrastructure sectors and
             designated federal Sector-Specific Agencies to encourage risk
             management strategies to protect against and mitigate the effects of
             attacks against critical infrastructure and key resources. “Sectors”
             are logical collections of assets, systems, or networks that provide a
             common function to the economy, government, or society.
             Homeland Security Presidential Directive 7 established 17 such
             sectors (with the 18th sector, Critical Manufacturing, added later).
             The directive also assigned responsibility for individual sectors to
             federal Sector-Specific Agencies. The DHS Office of Infrastructure
             Protection (IP) is the Sector-Specific Agency for the Dams Sector.

             The Dams Sector consists of dams, navigation locks, levees, and
             other similar water retention and control facilities, collectively
             known as “dam assets.” In fiscal year (FY) 2009, DHS identified
             several hundred critical dam assets through the National Critical
             Infrastructure Prioritization Program. This program, implemented
             by IP, conducts an annual data call to the State Homeland Security
             Advisors and Sector-Specific Agencies to identify infrastructure
             that “would, if destroyed or disrupted, cause national or regional
             catastrophic effects.”

             These critical dam assets are owned by private entities, federal
             agencies, and state and local governments. Dam assets are
             regulated by a variety of entities. For example, state dam safety
             offices regulate some dams; federal agencies that own and operate
             dams, such as the U.S. Army Corps of Engineers, are self-
             regulating; and the Federal Energy Regulatory Commission
             regulates most hydroelectric facilities.

             Homeland Security Presidential Directive 7 mandated the
             development of a National Plan for Critical Infrastructure and Key
             Resources Protection to integrate critical infrastructure protection

                DHS Risk Assessment Efforts in the Dams Sector


                                    Page 2

                    efforts by governments, the private sector, international
                    organizations, and foreign governments into a single national
                    program. The first National Infrastructure Protection Plan was
                    released in 2006. The National Infrastructure Protection Plan
                    development and support is carried out within a largely voluntary
                    partnership framework. The National Infrastructure Protection
                    Plan includes the Critical Infrastructure Partnership Advisory
                    Council, a legal framework to organize the asset owners, operators,
                    and federal, state, local, and tribal government entities in sector
                    planning, collaboration, and information sharing. An outcome of
                    this partnership is the development of Sector-Specific Plans.

                    As the Sector-Specific Agency for dams, IP’s responsibilities
                    include identifying, assessing, and prioritizing dam sector assets.
                    The IP’s Dams Branch is responsible for sector-wide risk
                    assessments. To accomplish its goals, IP partners with the Bureau
                    of Reclamation, U.S. Army Corps of Engineers, Federal Energy
                    Regulatory Commission, Federal Emergency Management
                    Agency, and state governments.

Results of Audit
     DHS lacks assurance that risk assessments were conducted and security risks
     associated with critical dam assets were identified and mitigated. Specifically, the
     Department did not:

            Review all critical dam asset risk assessments conducted by other
            agencies,
            Conduct security reviews for 55% of the critical dam assets as of March
            2011 to assess their overall security posture, or
            Ensure that corrective actions were completed to mitigate risk when
            security gaps were identified.

     DHS was unable to complete these tasks because it does not have the authority to
     ensure that security partners participate in risk management activities or that dam
     owners undergo departmental assessments and implement corrective action. The
     National Infrastructure Protection Plan prescribes a partnership approach between
     government and the private sector to voluntarily manage risk. Underlying
     legislation does not give the Department the necessary authority to ensure that
     security partners participate in risk management activities, or that dam owners
     undergo departmental assessments and implement corrective action. DHS could
     not always obtain cooperation from its security partners and dam owners, and did
     not always collaborate successfully. This collaborative approach can succeed only
     if security partners and dam owners work together to perform risk management.



                       DHS Risk Assessment Efforts in the Dams Sector


                                           Page 3

Review of Risk Assessments
     IP cannot determine whether security risks at critical dam assets have been
     identified and mitigated because it has not obtained and reviewed the
     adequacy of risk assessments at critical assets. As a result, IP does not
     know whether all critical dam assets have undergone risk assessments, or
     the quality of those that were performed. IP contends that its federal
     partners do review asset-specific security risk assessments in accordance
     with well-established internal directives and policies. However, it
     indicated that it does not have the authority to require official evidence of
     such reviews to be provided under the National Infrastructure Protection
     Plan’s voluntary framework. Unless DHS verifies the existence and
     quality of the risk assessments, IP cannot ensure that critical dam assets
     are protected.

Security Reviews for Critical Dam Assets
     IP has conducted security reviews for only 45% of the critical dam assets
     to assess their overall security posture. IP does not know the security
     posture for the remaining 55% of the critical dam assets.

     For IP to conduct a security review, the owner/operator must voluntarily
     collaborate with IP. Two types of security assessments conducted by IP
     are Enhanced Critical Infrastructure Protection Security Surveys and Site
     Assistance Visits.

            Enhanced Critical Infrastructure Protection Security Surveys
            involve a survey of assets of national significance, based primarily
            on a questionnaire completed through an interview, or a partial or
            full site review. Information is obtained on a facility’s security
            force, physical security, access controls, and surveillance and
            detection capabilities.

            Site Assistance Visits are non-regulatory risk-informed
            vulnerability assessments that assist an owner or operator with
            identifying and documenting critical infrastructures, vulnerabilities,
            protective measures, planning needs, and options for consideration
            to increase protection from, and resilience to, a wide range of
            hazards.

     Figure 1 illustrates IP’s assessment of assets identified during the FY 2009
     National Critical Infrastructure Prioritization Program.




               DHS Risk Assessment Efforts in the Dams Sector


                                   Page 4

             Figure 1. IP Security Reviews




                                                             Surveys Only, 34%




                             None, 55%

                                                                  Surveys &
                                                              Assessments, 7%

                                                          Assessments Only,
                                                                 4%




             Source: Office of Inspector General (OIG) analysis of IP reviews.

      We reviewed 94% of the IP-completed survey questionnaires and found
      that 47% of the asset owners were not completing vulnerability
      assessments, not sharing vulnerability assessments with DHS, or not
      implementing “options for consideration” from the vulnerability
      assessments. The term “vulnerability assessments” has been used
      interchangeably with risk assessments and includes a wide range of risk
      and vulnerability assessment methodologies used by security partners in
      the Dams Sector. Unless IP verifies the existence and quality of the risk
      assessments, it cannot ensure that critical dam assets are protected.

      According to one IP Protective Security Advisor, dam owners and
      operators tend to be more concerned with daily operations than with
      preparing for possible future catastrophes; unless an asset’s regulatory
      agency requires a vulnerability assessment, it likely will not be done.
      Protective Security Advisors said that some asset operators did not have
      the authority to release the results of vulnerability assessments. Although
      IP could have requested these vulnerability assessments through the asset
      owners’ regulatory agencies, it chose not to do so in the instances
      reviewed.

Mitigation of Identified Security Risks
      Our review of IP-completed survey questionnaires revealed gaps in
      security controls at critical dam assets. Similarly, our review of the
      IP-completed site assistance visits at critical dam assets identified
      numerous security gaps. When DHS personnel identify security
      weaknesses during site assistance visits, they provide the owner with
      “Options for Consideration,” which are corrective actions designed to
      mitigate the security risks. However, implementation of the corrective
      actions is at the discretion of the facility owner because the Department
                DHS Risk Assessment Efforts in the Dams Sector


                                    Page 5

                 has no regulatory authority over the dams. As such, DHS cannot enforce
                 its recommendations.

                 In contrast to the Dams Sector, which operates outside of DHS’ regulatory
                 reach, the Department of Homeland Security Appropriations Act of 2007
                 provided DHS with the authority to regulate the security of high-risk
                 chemical facilities. Section 550 of the act requires the Secretary of DHS
                 to promulgate interim final regulations “establishing risk-based
                 performance standards for security of chemical facilities” that the
                 Secretary determines present high levels of security risk. The act and its
                 implementing regulations mandate audits and inspections to determine
                 compliance with the regulations, provide for civil penalties for violation of
                 an order issued under the act, and allow the Secretary to order a facility to
                 cease operations if it is not in compliance with the requirements.1

        Conclusion
                 The absence of security reviews, combined with the inability to require
                 asset owners to mitigate security vulnerabilities when assessments are
                 conducted, has prevented the Department from identifying and mitigating
                 security risks. DHS needs authority to review risk assessments, conduct
                 inspections when assessments are deficient, and make recommendations
                 for corrective actions.

        Recommendation
                 We recommend that the Assistant Secretary, Office of Infrastructure
                 Protection:

                 Recommendation #1: Determine the appropriateness of a legislative
                 proposal to establish regulatory authority for the critical Dams Sector
                 assets similar to the Chemical Sector. Specifically, DHS personnel need
                 authority to review risk assessments, conduct inspections when assessments
                 are deficient, and make recommendations for corrective actions.

        Management Comments and OIG Analysis
                 In its response to the draft report, the National Protection and Programs
                 Directorate/Office of Infrastructure Protection provided additional
                 information regarding the specific agency responsibilities involved within
                 a voluntary framework. The Directorate noted that criteria for
                 determining critical assets were recently refined, resulting in a lower
                 number of critical assets and a corresponding increase in the percentage of

1
 Implementing regulations for Section 550 of the Department of Homeland Security Appropriations Act of
2007 are at Title 6 of the Code of Federal Regulations, Part 27.

                            DHS Risk Assessment Efforts in the Dams Sector


                                                Page 6

assets assessed by the Directorate. As many agencies at the federal and
state level oversee the safety and security of dams, the robustness of
security programs varies greatly, as it is directly influenced by regulatory
agency level of authority and available resources. Finally, the Directorate
noted that voluntary implementation of options for consideration to
owners and operators are presented to illustrate the benefits of such
improvements, rather than providing top-down management as a
regulatory authority might do.

The Directorate concurred with the recommendation to determine the
appropriateness of a legislative proposal. The Directorate is beginning
work and research to make that determination and a subsequent
recommendation for action. As part of the continuous review of the
effectiveness of the partnership framework, this analysis will provide
insight into new programs and refinements of current initiatives needed to
address any critical gaps. The Directorate will coordinate with internal
DHS stakeholders, including the Offices of General Counsel and
Legislative Affairs, and representatives from federal and state agencies
currently responsible for the regulation of critical Dams Sector assets, as
part of its analysis of the appropriateness of a legislative proposal.

We agree that the planned corrective action adequately addresses the
recommendation. However, the recommendation will remain open and
unresolved until a target date for completion of the analysis is provided.




          DHS Risk Assessment Efforts in the Dams Sector
 


                              Page 7
 

Appendix A
Purpose, Scope, and Methodology

                   The purpose of our review was to determine whether IP and other
                   components of the Department have identified and taken steps to
                   assess risk at the most critical dam assets, and followed up to
                   ensure that recommendations were implemented.

                   We met with divisional offices within IP under the DHS Directorate
                   for National Protection and Programs, including the Sector-Specific
                   Agency Executive Management Office, Protective Security
                   Coordination Division, Infrastructure Analysis & Strategy Division,
                   and the Infrastructure Information Collection Division. We also
                   interviewed security partners, including the Bureau of Reclamation;
                   U.S. Army Corps of Engineers; Federal Energy Regulatory
                   Commission; Federal Emergency Management Agency; and the
                   states of Maryland, New Jersey, New York, Tennessee, and Texas.

                   We reviewed relevant Government Accountability Office and OIG
                   reports, the Homeland Security Act of 2002, Critical Infrastructure
                   Information Act of 2002, Post-Katrina Emergency Management
                   Reform Act of 2006, Implementing Recommendations of the 9/11
                   Commission Act of 2007, Homeland Security Presidential Directive
                   7, National Infrastructure Protection Plan, and the Dams Sector-
                   Specific Plan. We obtained minutes from selected meetings
                   between June 2007 and November 2009 of the Dams Sector Joint
                   Government Coordinating Council and the Sector Coordinating
                   Councils as part of the Critical Infrastructure Partnership Advisory
                   Council.

                   We reviewed IP Enhanced Critical Infrastructure Protection
                   Security Surveys and Site Assistance Visits to determine the
                   security weaknesses at the critical dam assets. We contacted other
                   infrastructure sectors to understand the processes they used in
                   assessing risk within their respective sectors. We also contacted
                   members of the Sector Coordinating Council to understand the
                   concerns of the private sector in assessing and mitigating risks at
                   their facilities.

                   We examined regulations issued by DHS that apply to high-risk
                   chemical facilities. We also compared risk-based performance
                   standards at high-risk chemical facilities with existing security
                   controls at critical dam assets.

                   We conducted this performance audit between January 2010 and
                   March 2011 pursuant to the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                     DHS Risk Assessment Efforts in the Dams Sector


                                         Page 8

Appendix A
Purpose, Scope, and Methodology

                   provide a reasonable basis for our findings and conclusions based
                   upon our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.




                     DHS Risk Assessment Efforts in the Dams Sector
 


                                         Page 9
 

Appendix B
Management Comments to the Draft Report




                                                                                           OffiCi! I1fl"~ UndO'S«rdury
                                                                                           NlJti(1HlJ/ PrIJf«t11J1f IJlfd Prog,1J1ItS Dir«tOt"Qtt
                                                                                           U.s. O"p.r1mfnl of Ilomtbnd S«urilY
                                                                                           W.shln«ton. DC 2OS28


                                                                                    "iQ. Homeland
                                                       JUL 2 0 2011                 9               Security
          Anne L. Richards
          Assistant Inspector General for Audits
          Office of Inspector General
          U.S. Department of Homeland Security
          Washington, DC 20528

          Dear Ms. Richards:

          Re: DIG Project No. I0-002-AUD-DJ-IS, DHS Risk Assessment Efforts in the Dams
          Sector

          The Department of Homeland Security (DHS)/National Protection and Programs
          Directorate (NPPD) appreciates the opportunity to review and respond to the Office of
          Inspector General (DIG) draft report OIG Project No. IO·002-AUD-DI-IS, DNS Risk
          Assessment Efforts in the Dams Sector. This audit was conducted to determine whether
          the Office of Infrastructure Protection (IP) and other components of the Department have
          (I) taken steps to assess risk at the most critical dam assets and (2) followed up to ensure
          that owners and operalors have implemented recommendations. NPPD and IP arc
          working to resolve the issues identified in the report.

          The OIG report presents an evaluation of risk assessment efforts associated with these
          critical assets. We provide the following infonnation to augment their discussion and
          provide a more comprehensive picture of the current landscape of risk assessment efforts
          in the Dams Sector, including

               •   risk assessment responsibilities of DHS as the Dams Sector-Specific Agency
                   (SSA) and lead for the overall national effort to enhance critical infrastructure
                   protection;
               •   updated data since fieldwork was completed;
               •   the current regulatory framework; and
               •   our efforts to have asset owners voluntarily follow up on options for
                   consideration.

          First, DHS and SSA responsibilities with respect to risk assessments include
          "coordinating, facilitating, and supporting comprehensive risk assessment and risk
          management programs" for high-risk assets and systems.- In a voluntary framework,
          DHS does this through conducting voluntary vulnerability assessments and security
          surveys on critical infrastructure at the owner/operators' request, supporting other

           I U.s. DepartmCni of Homeland Security, Nationallnfraslructure Proleclion Plan, 2009: p. 17.




                              DHS Risk Assessment Efforts in the Dams Sector
 


                                                         Page 10
 

Appendix B
Management Comments to the Draft Report




          Federal, State, local, tribal, and territorial partners in their assessments as requested, and
          conducling risk analysis on the sector as a whole. The SSA also provides valuable tools
          to the private sector owners and operators to allow thcm to do their own facility-level
          assessments.

          Second, the OIG report is based on the facilities identified as critical through the Fiscal
          Year CFY) 2009 National Critical Infrastructure Prioritization Program (NCIPP) data call.
          The NCIPP criteria were significantly refined after FY 2009. Consequently, the total
          number of dams deemed critical has decreased, and the percentages of assets assessed by
          NPPDIIP have increased.

          Third, a number of different agencies at the Federal and State levels of government
          oversee the safety and security of dams. Considering the most recent data. most
          (approximately 80 percent) of critical dam assets in the FY 2011 NCIPP list are owned,
          operated, and/or regulated by Federal agencies, such as the U.S. Anny Corps of
          Engineers, U.S. Bureau of Reclamation, U.S. International Boundary and Water
          Commission, Tennessee Valley Authority, and Federal Energy Regulatory Commission.
          These agencies have robust programs for identifying critical assets, completing facility­
          level security risk assessments, detennining the necessary level of protection,
          implementing security programs, and/or assessing perfonnance. The remaining assets in
          the FY 2011 NCIPP list fait under the jurisdiction of State agencies which, in most cases,
          have regulatory responsibility over dam safety issues. The robustness of the dam security
          programs implemented by these State regulatory agencies is directly influenced by their
          level of authority and available resources, which is quite varied.

          Fourth, DHS and SSA engagement with the Dams Sector is conducted in a voluntary
          framework-there is no associated enforcement aulhority. Within this voluntary
          framework, we believe it is important to work as partners with our stakeholders.
          NPPDIIP presents the voluntary implementation of options for consideration to owners
          and operators as a business case, illustrating the benefits such improvements would have
          for operations of that facility, rather than providing top down management as an
          organization with regulatory authority might do. PPD/IP is currently expanding and
          refining a new voluntary program to follow up on actions taken after our assessments. So
          far, the program is well received by the Dams Sector.

          OIG Recommendalion

          The OIG recommended that the Assistant Secretary, Office oflnfrastructure Protection,
          detennine the appropriateness of a legislative proposal to establish regulatory authority
          for the critical Dams Sector assets similar to the Chemical Sector. The OIG clarified that
          such regulatory authority would grant DHS personnel authority to review risk
          assessments, conduct inspections when assessments are deficient, and make
          recommendations for corrective actions. NPPD/IP concurs with the recommendation to
          detemline the appropriateness of a legislative proposal, and we are beginning work and
          research to make that determination and a subsequent recommendation.


                                                         2




                            DHS Risk Assessment Efforts in the Dams Sector
 


                                                    Page 11
 

Appendix B
Management Comments to the Draft Report




          As part of the continuous review of the cfTectiveness of the partnership framework, this
          analysis will provide insight into new programs and refinements of current initiatives
          needed to address any critical gaps. PPD/IP will coordinate with internal DHS
          stakeholders, including the Offices of General Counsel and Legislative Affairs, and
          representatives from Federal and State agencies currently responsible for the regulation
          of critical Dams Sector assets as part of its analysis of the appropriateness of a legislative
          proposal.

          Again, we thank you for the opportunity to review and provide comment on this draft
          report, and look forward to working with you on future homeland security engagements.

                                                         Sincerely,



                                                         Rand Beers
                                                         Under Secretary


           AUachments

          I) Sensitivity Review
          2) Technical comments




                                                         3




                           DHS Risk Assessment Efforts in the Dams Sector
 


                                                    Page 12
 

Appendix C
Major Contributors to this Report

                    Michael Siviy, Director
                    Dennis Deely, Audit Manager
                    Kevin Donahue, Auditor
                    Anthony Colache, Program Analyst
                    Ebenezer Jackson, Program Analyst
                    Ashley Smith, Program Analyst
                    Kathleen Hyland, Referencer




                      DHS Risk Assessment Efforts in the Dams Sector
 


                                         Page 13
 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for National Protection and Programs Directorate
                      Assistant Secretary for Office of Infrastructure Protection
                      Director, GAO-OIG Audit Liaison Office for the National
                         Protection and Programs Directorate

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                        DHS Risk Assessment Efforts in the Dams Sector
 


                                           Page 14
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
